<html>
<title> - WALLACE NOMINATION</title>
<body><pre>[Senate Hearing 116-305]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-305

                           WALLACE NOMINATION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                                   TO

   CONSIDER THE NOMINATION OF GEORGE ROBERT WALLACE TO BE ASSISTANT 
  SECRETARY FOR FISH AND WILDLIFE AND PARKS AT THE DEPARTMENT OF THE 
                                INTERIOR

                               __________

                              JUNE 5, 2019

                               __________
                               
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                                __________
	                               
	
                        U.S. GOVERNMENT PUBLISHING OFFICE                    
37-311                         WASHINGTON : 2020                     
	          
--------------------------------------------------------------------------------------
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
                   Lucy Murfitt, Deputy Chief Counsel
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Manchin III, Hon. Joe, Ranking Member and a U.S. Senator from 
  West Virginia..................................................     7

                               WITNESSES

Enzi, Hon. Michael B., a U.S. Senator from Wyoming...............    16
Barrasso, Hon. John, a U.S. Senator from Wyoming.................    17
Wallace, George Robert, nominated to be Assistant Secretary for 
  Fish and Wildlife and Parks at the Department of the Interior..    18

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

American Fly Fishing Trade Association, et al.:
    Letter for the Record........................................    11
Barrasso, Hon. John:
    Introduction.................................................    17
(The) Coalition to Protect America's National Parks:
    Letter for the Record........................................    13
Ducks Unlimited:
    Press Release for the Record.................................     3
Enzi, Hon. Michael B.:
    Introduction.................................................    16
Manchin III, Hon. Joe:
    Opening Statement............................................     7
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
National Parks Conservation Association:
    Position on Nomination of Rob Wallace........................     4
    Letter for the Record........................................     9
National Shooting Sports Foundation, Inc.:
    Letter for the Record........................................    15
National Wildlife Refuge Association:
    Letter for the Record........................................    40
Rio Blanco County (Colorado) Board of County Commissioners:
    Letter for the Record........................................    41
Wallace, George Robert:
    Opening Statement............................................    18
    Written Testimony............................................    21
    Responses to Questions for the Record........................    38
Wayne County, Utah Board of Commissioners:
    Letter for the Record........................................    43

 
                           WALLACE NOMINATION

                              ----------                              


                        WEDNESDAY, JUNE 5, 2019

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI,
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order. This is a rare Wednesday session of the Energy 
and Natural Resources Committee.
    Before we begin, I want to recognize and provide a tribute 
to two Park Service employees, Jeff Babcock and Charles Eric 
Benson. They tragically passed away in an airplane crash in 
Whitehorse, Canada, just a week ago, last Monday. They were not 
on official business, they were ferrying a private aircraft 
from the Lower 48 up to Alaska, as so many Alaskans do. Both of 
these individuals had extensive time within the Park Service. 
Jeff, in addition to being with Park Service for years, had a 
distinguished career in the military and with the Troopers in 
the state. Eric Benson was also in the Air Force and the Army.
    Truly, truly great individuals, longtime Alaskans, and just 
a reminder to us of just the inherent risk that sometimes we 
experience in more rural places--but both individuals who 
served their country and the agency very well. We were very, 
very saddened in Alaska by this news, and our thoughts and 
prayers are with their families and loved ones.
    We are here this Wednesday morning to consider the 
nomination of Robert Wallace, Rob, to be Assistant Secretary 
for Fish and Wildlife and Parks at the Department of the 
Interior.
    This is, for me, a critical position. This is a nomination 
that we have been waiting for anxiously, I might add, for some 
period of time. And Mr. Wallace, I want to thank you for your 
willingness to serve.
    This is one of five Assistant Secretary positions at the 
Department. And the individual who holds it oversees two key 
agencies, the Fish and Wildlife Service as well as National 
Park Service--of course they have numerous and wide-ranging 
responsibilities. But together they administer nearly 170 
million acres of lands in the United States, including 129 
million acres in Alaska alone.
    So just to put it into context, colleagues, roughly 75 
percent of all of the acreage of national parks and wildlife 
refuges in the country are in the State of Alaska. And Alaska 
is home to the largest National Parks and refuges--we have 7 of 
the 12 National Parks that exceed one million acres.
    I am just putting it in context for the rest of you, when I 
say that the Department of the Interior is like our 
``landlord,'' we really mean it because Alaskans need the 
people that are in charge to recognize that their decisions 
have a significant impact on our lives and our livelihoods.
    We have had some highs and some lows within the Department, 
where again, it was more of a landlord, ``mother may I,'' type 
of relationship instead of a partnership. We want to return to 
that partnership relationship, and I think we have seen 
continuing improved relations.
    With so much land administered by the Department, Alaska 
has a wide range of issues that need to be addressed. I don't 
think I need to tell you, Mr. Wallace, but you are probably 
going to be spending a lot of time on Alaska-related issues--it 
is just the nature of it.
    But we have some things that are on deck, most notably a 
life-saving road to connect King Cove and Cold Bay. We also 
need to stand up the oil and gas program that Congress 
authorized for the 1002 Area, which is supported by nearly 70 
percent of Alaskans, including many Alaska Natives who actually 
live within the 1002 Area.
    At the national level, we need to address the multi-
billion-dollar maintenance backlog at our land management 
agencies, particularly for the National Park Service and for 
our wildlife refuges. This is something that many of us have 
been talking about, how we move forward on that. We need to 
provide access for hunting and fishing and promote outdoor 
recreation. There are also many other provisions from our 
recent lands package that we need to get implemented for the 
benefit of those communities and the people who live there.
    So again, these are just a few of the imperatives that we 
have in place and why it is so important to fill this position. 
Mr. Wallace, you need to know that I am very confident that you 
have what it is going to take in order to succeed within this 
position. You bring decades of experience in public life, 
including your time at the National Park Service as well as 
here in the Senate. You are no stranger to folks around here, 
including right here on this Committee. Mr. Wallace understands 
the importance of public lands and the complex issues that 
affect them, so it is no surprise that a wide range of 
stakeholders, from Ducks Unlimited to the National Park 
Conservation Association, are supporting the nomination.
    [The information referred to follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Interior Department has actually been without a Senate-
confirmed Assistant Secretary for Fish and Wildlife since 2011. 
That is a long time to have a vacancy in a very key position, 
so I look forward to moving Mr. Wallace's nomination quickly.
    For those who have questions this morning, know that I am 
going to stick around for as long as it takes. We are going to 
have a series of votes beginning at 11:00 which will kind of 
interrupt things, but my intention is to conclude this hearing 
rapidly this morning, and then to report Mr. Wallace's 
nomination as soon as possible.
    I am going to turn to my Ranking Member for his opening 
comments, and then I would invite Senator Enzi and Senator 
Barrasso, as the Senators from Mr. Wallace's home state, to 
provide further introduction.

              STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Madam Chairman, for holding 
this hearing today.
    Welcome to the Committee, Mr. Wallace, and thank you for 
your willingness to serve and appear before the Committee.
    The position of Assistant Secretary for Fish and Wildlife 
and Parks, as we know, was created by Senator Tom Udall's 
father, Interior Secretary Stewart Udall, in 1965, when he 
assigned responsibility for the National Park Service to the 
Assistant Secretary for what was previously only Fish and 
Wildlife.
    It is a big job, as the Senator has mentioned. The 
Assistant Secretary is responsible for overseeing 418 national 
park units with 85 million acres throughout all 50 states and 4 
of our territories, which are visited by upwards of 300 million 
people a year, and 567 national wildlife refuges covering 
nearly 150,000 acres, which provide hunting, fishing, and 
recreational enjoyment to another 55 million people a year.
    In my little State of West Virginia, we have six national 
park units and two national wildlife refuges. I am sure Mr. 
Wallace agrees with me that they are some of the greatest areas 
of the country. Like all the Senators, I believe the parks in 
my state are the best and the most important compared to 
everyone else's. So you will have not heard this for the first 
or last time.
    Unfortunately, this important job has been without a 
Senate-confirmed office holder, as the Chairman has just 
mentioned, for eight years, nearly eight years. If confirmed, 
it will be on Mr. Wallace to provide the proper stewardship of 
some of the most iconic places in the country, which have been 
set aside for this and future generations.
    I am pleased that we have a nomination for this important 
post. I am particularly pleased, Mr. Wallace, to be able to 
consider you for this position with the caliber and background 
that you have. I will read off a few. You know the National 
Park Service. You got started fresh out of college as a 
seasonal Park Ranger in the Grand Teton National Park. You 
later went on to serve as the Assistant Director for the 
Legislative and Congressional Affairs for the National Park 
Service. Equally important, you know the Senate and this 
Committee. You were a Legislative Assistant to Senator Malcom 
Wallop and later went on to become Senator Wallop's Chief of 
Staff. In '91 you became the Committee's Republican Staff 
Director, a post you held for four years. During that time, the 
landmark Energy Policy Act of '92 and nearly 100 park and 
public land bills under the Committee's jurisdiction were 
enacted into law.
    As if those ties to the Committee were not enough, your 
wife, Celia, used to work for the Committee and later for 
former Senator Craig Thomas. So you are well involved, and we 
have no way to have any excuses we can tolerate, okay? You know 
all the secrets.
    I have not had a chance to meet with you personally until 
today, but I know our mutually good friend, Dave Freudenthal, 
recommends you at the highest level. Coming from my friend, 
Dave, who is a former governor of the State of Wyoming and dear 
friends of both Senator Enzi and Senator Barrasso, I take that 
considerably to be a compliment. One constant in your life, 
Governor Freudenthal wrote, ``is a deep dedication to the 
nation's park system.''
    With that, I finally note that the Committee has received 
letters of support for your nomination from the National Parks 
Conservation Association, the Coalition to Protect America's 
National Parks and National Shooting Sports Foundation.
    [The information referred to follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    I truly believe that you are going to be a bipartisan 
builder here bringing us all together, which is something that 
we do not have too often and which is extremely important to 
all of us. But we want to thank you again for being here and 
letting us consider you for this important position for our 
country.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Manchin.
    Let's turn to the Senior Senator from Wyoming to provide 
the first introduction, and then we will turn to Senator 
Barrasso.

              STATEMENT OF HON. MICHAEL B. ENZI, 
                   U.S. SENATOR FROM WYOMING

    Senator Enzi. Thank you, Chairman Murkowski, and thank you, 
Ranking Member Manchin, for your comments.
    It's my privilege to introduce Mr. Rob Wallace, who is 
testifying in front of the Committee today on his nomination to 
serve as Assistant Secretary for Fish and Wildlife and for 
National Parks at the Department of the Interior.
    I've known Rob for many years, and I don't think there 
could be a better choice to fill this position.
    Now, Tom Bodett of Alaska, known for his Motel 6 ads with 
``leave the light on,'' wrote a humorous book--the name of it 
is ``The End of the Road.'' And he begins that, ``I'm writing 
about some of my friends. Please be kind to them.''
    I know you'll be kind to my very qualified friend, who is 
here today, and as a result I won't ask to read into the record 
all of the letters of recommendation from all of the people 
from Wyoming and across the country, so.
    The Chairman. They will be included as part of the record.
    Senator Enzi. Now I'm going to say some of the same things 
that Senator Manchin said. I'm a retailer, and I know when you 
run an ad the first time hardly anybody gets it. If you run it 
again, a few more will do, and I'll be willing to run this 
several times if it will help with Rob's nomination.
    I'll be hitting the highlights. My colleague, Senator 
Barrasso, will fill in the details. We're a team, and our whole 
delegation supports this nomination.
    Rob was born and raised in Wyoming where he quickly learned 
the important role the Department of the Interior plays in the 
upkeep of the state's natural beauty. In fact, Rob's first job 
after college was with the National Park Service where he 
served as a seasonal ranger in Grand Teton National Park. For 
five years Rob helped with the preservation and maintenance at 
one of our nation's finest parks.
    His passion for our nation's public lands sent him here to 
Washington where he handled energy and environment issues for 
former Wyoming Senator Malcolm Wallop. Before leaving Capitol 
Hill, he served as a Staff Director of the Energy and Natural 
Resources Committee.
    He returned to Sheridan and the incredible Big Horn 
Mountains until Rob once again came back to Washington where he 
has served as Assistant Director of the National Park Service 
for Congressional and Legislative Affairs. During this time, he 
supervised the Reagan Administration's legislative agenda for 
national parks which included readjusting visitor entrance 
fees, providing resources to fight the 1988 forest fires and 
adding several new units to the National Park System.
    In 1989, Rob became Senator Wallop's Chief of Staff before 
heading back to the Senate Energy and Natural Resources 
Committee in 1991 to again serve as Staff Director. I first met 
Rob in 1995 when he served as Chief of Staff to Wyoming 
Governor Jim Geringer, and I was in the state legislature.
    These days Rob is still involved in Wyoming in the 
management of public lands. Rob serves as the President of the 
Upper Green River Conservancy, a sage grouse habitat bank that 
partners with ranchers, energy companies and conservation 
groups that work together to protect critical sage grouse 
habitat in Wyoming.
    Rob's career and character reflect a man willing to step up 
and serve his community and country. His years of experience at 
Interior and in the Halls of Congress have well suited him for 
this new chapter.
    I'm pleased to introduce him to you today, and I hope you 
will give his nomination full and fair consideration while 
you're kind to my friend.
    The Chairman. We look forward to doing just that. We 
appreciate your sage counsel and advice, Senator Enzi, and 
thank you for being here before the Committee this morning.
    Now let's proceed to Senator Barrasso.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you, Madam Chairman, and I 
appreciate the opportunity to join my colleague, Senator Enzi, 
in introducing our friend, Rob Wallace, as President Trump's 
nominee to serve as Assistant Secretary for Fish and Wildlife 
and Parks at the Department of the Interior.
    Rob has had a very busy two days here in the Senate, Madam 
Chairman. Yesterday I chaired his nomination hearing upstairs 
in the Environment and Public Works Committee because our 
Committees both have jurisdiction over this. Of course, Rob did 
a great job discussing his experience and views on issues 
facing the U.S. Fish and Wildlife Service.
    So today, I expect the Committee is going to focus more on 
the Assistant Secretary's role to oversee the national parks 
which is actually where Rob began his career.
    Madam Chairman, Rob Wallace is the right person for this 
job. His 45-year career is comprised of service at nearly every 
possible, relevant level of state and Federal Government as 
well as the private sector.
    He has been on both sides of the legislative table in 
government relations at the Park Service and during his service 
here in the United States Senate. He led the staff for this 
very Committee for former Senator Malcolm Wallop from Wyoming, 
and I know your father was Chairman of the Committee and at a 
point worked very closely with Senator Wallop as two solid 
Westerners focused on the major issues that our nation faces.
    Rob knows the challenges facing the Department from his 
time as a seasonal ranger in Grand Teton National Park and as a 
long-time resident of Teton County, Wyoming.
    And from his time in the private sector, Rob has continued 
to demonstrate his commitment to this nation's parks as one of 
the founding members of the Grand Teton National Park 
Foundation. And he spent many decades in leadership of 
organizations that promote conservation and cultivation of our 
natural resources for use in the future.
    One could argue that Rob's entire career has prepared him 
to serve at Interior.
    I have known Rob for more than 35 years. I know him to be 
pragmatic, fair, innovative. His dedication is second to none.
    It is a pleasure to join Senator Enzi in introducing him 
here today, and I look forward to working with him after the 
Senate confirms his nomination.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Thank both of you for the introduction. You have not left 
much for Mr. Wallace to speak to in terms of his background, 
but we appreciate that because it is helpful to the Committee 
for those who know him and apparently know him well.
    The rules of the Committee which apply to all nominees 
require that they be sworn in connection with their testimony. 
So I would ask, Mr. Wallace, that you please rise and raise 
your right hand.
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth?
    Mr. Wallace. I do.
    The Chairman. You may be seated.
    Before you begin your statement, I will ask you three 
questions addressed to each nominee who comes before this 
Committee.
    First, will you be available to appear before this 
Committee and other Congressional committees to represent 
departmental positions and respond to issues of concern to 
Congress?
    Mr. Wallace. Yes, I will.
    The Chairman. Are you aware of any personal holdings, 
investments or interests that could constitute a conflict or 
create an appearance of such a conflict should you be confirmed 
and assumed the office to which you have been nominated by the 
President?
    Mr. Wallace. I do not.
    The Chairman. Are you involved or do you have any assets 
held in a blind trust?
    Mr. Wallace. No.
    The Chairman. Mr. Wallace, you may proceed. If you have any 
individuals that you would care to introduce, you are certainly 
welcome to do so. We are pleased to have you before the 
Committee.

 STATEMENT OF GEORGE ROBERT WALLACE, NOMINATED TO BE ASSISTANT 
SECRETARY FOR FISH AND WILDLIFE AND PARKS AT THE DEPARTMENT OF 
                          THE INTERIOR

    Mr. Wallace. Well, thank you, Chairman Murkowski. I was 
talking to Sam Fowler a minute ago. I've probably been in this 
Committee 100 times and this is the first time I've actually 
looked at Senators in my testimony. So you look differently in 
the front than you do from behind.
    [Laughter.]
    Senator Manchin. We have been told that.
    Mr. Wallace. But Chairman Murkowski and Ranking Member 
Manchin and members of the Committee, thank you for having me 
here today. I am grateful to the President for nominating me to 
this position and thank Secretary Bernhardt for his support.
    I would also like to recognize my family that's here today. 
We've shrunk by one since yesterday as my wife is ill today and 
can't make it. But my daughter, Morgan----
    [Laughter.]
    ----you moved.
    The Chairman. Welcome, Morgan.
    Mr. Wallace. My daughter, Morgan just completed her 
sophomore year at Wake Forest as an engineering student and is 
doing an internship up in New York and is down here to support 
her dad today. So Morgan, thank you for coming along.
    The Chairman. We appreciate that, and we hope that your 
wife gets well.
    Mr. Wallace. And my youngest daughter, Ella, just finished 
the eighth grade. She's not here. She's studying for the SSAT 
under the event that she may have to apply for a new school 
next year. So she couldn't join us today either.
    But I'm going to jump through my opening remarks because 
Senator Enzi and Senator Barrasso and even Senator Manchin 
mentioned much about my career.
    But I would like to highlight that we're privileged, the 
four of us, to live just south of Grand Teton National Park. 
It's in the Yellowstone ecosystem and each year our community 
hosts millions of visitors who come to visit two of the world's 
most majestic national parks. They also marvel at the abundance 
of wildlife we all enjoy thanks to wise management by state and 
federal officials and the National Elk Refuge that's located in 
the heart of our valley.
    But I know simply living in a special place is not 
sufficient justification to ask for your support for this 
important position overseeing the National Park Service and the 
Fish and Wildlife Service.
    As Senator Enzi mentioned, my journey here began several 
decades ago when I was hired as a Park Ranger in Grand Teton 
National Park. There I patrolled the park's rivers and lakes, 
worked with the mountain rescue team, enforced game and fish 
regulations, performed law enforcement operations and emergency 
medical services on the park's highways and traveled for days 
at a time in the backcountry on skis as part of my job. And 
then in the winter and in the fall, if my job ended early, I 
worked at an elk hunting camp in the nearby national forest.
    But it wasn't those daily adventures that made the most 
profound impact on me, it was the number of issues that swirled 
around the park when I was there. It was a place where 
dignitaries from around the world traveled to attend the Second 
World Conference on National Parks and where the President of 
the United States came to relax.
    Up the road in Yellowstone a raging debate was underway 
about how to wean grizzly bears off human garbage. And in the 
Tetons, a vibrant conversation was underway about fire 
management, search and rescue and visitor use and resources 
protection. Trying to figure out how to become more involved in 
these debates that were so interesting to me prompted me to 
quit that job, volunteer on a campaign for the United States 
Senate which I arrived in Washington, had a job as an LA for 
the EPW Committee and eventually as Minority Staff Director of 
this Committee and along the way. It's been a fascinating 
journey about the important mission of the Park Service and the 
Fish and Wildlife Service, a very important role that both the 
Federal Government and Congress plays in solving these 
complicated problems. And knowing that winning everything, 
people seldom win by winning everything, and it's the 
bipartisan decisions that are the lasting ones.
    And if confirmed for this important position, I'm committed 
to working constructively with Congress on behalf of the parks, 
refuges, fish and wildlife because I strongly believe well-
meaning people engage in good faith and communicate effectively 
the opportunity to do good things for these special resources 
are unlimited.
    So thank you for the opportunity to be here, Madam 
Chairman, and I look forward to answering questions.
    [The prepared statement of Mr. Wallace follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you so much, Mr. Wallace.
    I am going to start my questioning by taking it back home. 
I mentioned in my opening that the Department of the Interior, 
particularly Fish and Wildlife and the National Parks, play an 
outsized role in Alaska.
    So a very broad question for you is, recognizing that, how 
do you intend to approach this relationship with Alaska? I will 
make it a little bit more specific in stating for the record 
something that you have heard and you have learned. Alaska is 
different. It includes laws that govern federal land management 
within the state, like ANILCA, that seeks to strike the balance 
between conservation and economic development and striking that 
balance is not always easy. With the last Administration we had 
a real difficult time trying to find any balance there.
    So as you share with me and the others how you will 
approach this relationship with Alaska, if you can, incorporate 
into your response also what you intend to do to help exercise 
the federal authorities in Alaska under ANILCA to, again, 
achieve and strike that balance.
    Mr. Wallace. I think, Senator, my first trip to Alaska 
occurred almost 30 years ago and I got my first schooling on 
the question you just asked me from another Murkowski that held 
that position.
    The Chairman. You have probably retained that lesson for 
some time.
    Mr. Wallace. Well, we went to the final exam at the Chena 
Pump House after the first three or four hours of the lesson, 
so----
    The Chairman. Enough said.
    Mr. Wallace. He got me early in my career. And I do 
recognize the special relationship between Alaska. You've got 
probably, what, 55 or 56 percent of all of the wildlife refuges 
and national parks in the system.
    And one of the things that I plan to focus a lot on, if 
confirmed for this position, is the role of partnerships. I 
mean, partner is an easy word to say, but as you probably know 
more than most, it's a hard word to implement and especially 
respecting the government-to-government partnerships between 
the state and the Federal Government, the tribes and the 
Federal Government, local communities and the government 
because the Federal Government always shows up as the alpha, 
you know, a partner in some of these debates. And that's a 
model that I will work very strongly to better equalize, if 
confirmed.
    As I said in my opening statement, I've been around the 
Alaska issues for quite a while back in the 1980s but I'm going 
to have some dusting up or some boning up to do too and I hope 
to be up in your state soon after being confirmed and perhaps 
help you and, you know, suggest some itineraries for me when I 
get up there.
    The Chairman. We have it mapped out for you already in 
anticipation of your confirmation.
    But specific to, kind of, boning up on ANILCA and some of 
these other specific land management provisions that are unique 
to Alaska, we have made some headway in requiring that all 
department employees in the Alaska region attend ANILCA 
training. This has been beneficial. They need to understand the 
implications.
    What I would hope is that you would be able to commit to 
ensuring that Fish and Wildlife and Park Service employees 
attend the same type of ANILCA training that other Department 
of the Interior employees attend. Again, just so that they can 
be knowledgeable in these areas of law.
    The other thing, and you have raised it, is the 
relationship with the tribes. Consultation is, of course, 
required with our Native peoples. Some federal agencies do 
consultation better than others. We have been fighting this for 
years now. Consultation needs to be more than just, kind of, a 
check the box exercise. And one of the agencies where the 
consultation has been frustrating is within the Fish and 
Wildlife Service. They don't currently have any agency policies 
that address consultation with our Alaska Native Corporations 
(ANCs). It is my understanding that Fish and Wildlife has 
acknowledged that this is lacking, but they don't have any 
specific plans to address it within a timeframe.
    So I would ask for a commitment that you will look into 
this to direct Fish and Wildlife to address the consultation 
issue with the ANCs in official agency policy so that we can 
implement better and meaningful consultation.
    Mr. Wallace. I do commit to that.
    I look forward to meeting Tara Sweeney, if I'm confirmed. I 
know she's highly respected in the world of tribal relations 
and I want her as an advisor to me on how, you know, the 
agencies I'm responsible for are doing with her and her 
coalition and constituency. So I look forward to that 
relationship.
    The Chairman. She will be a good guide.
    Let me turn to Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman.
    Mr. Wallace, as you probably noticed if you kept tabs on us 
here in Congress, things can become a little unreliable at 
times as far as the job we are supposed to do, like keeping the 
government open.
    Mr. Wallace. Senator?
    Senator Manchin. Like keeping the government open.
    So what happened, we had a shutdown in 2013. We shut all 
the parks down at that time. We just shut it all down.
    Then last year we come back with another shutdown because 
of the inability for us to do our job. The last time, Mr. 
Bernhardt at that time, moved in and kept the parks open to a 
point to where the sanitary conditions became intolerable. He 
had to make a decision. He made a decision to reach into the 
entrance fees of the parks and spent about a quarter of a 
billion dollars to try to pay people to come in and clean the 
bathrooms and clean the garbage and things of that sort.
    I am not saying that this might not happen again. I hope it 
never does, but if it does, have you given it any thought, how 
you would handle that or would you keep the parks open and try 
to ask for compensation for that or the flexibility or 
basically just shut them down? It is a tough one.
    Mr. Wallace. It is a tough one, Senator.
    And I haven't been down to the Department yet. I think this 
is my 23d day as being a nominee which included about three 
round trips back home to negotiate with my 14-year-old on her 
life, but I know it's an important question.
    I talked to superintendents that used fee money to keep 
their parks open during the shutdown.
    Senator Manchin. Last year.
    Mr. Wallace. And it's a question I'd like to get a little 
bit more educated on before----
    Senator Manchin. Well, we would like to work with you on 
that because we don't think that the citizens of this great 
country should pay the price for our inability to do our job.
    Mr. Wallace. Right.
    Senator Manchin. It is a shame. I hope we never have 
another shutdown, but as toxic as things are from time to time, 
it could happen. We have to work through that and, basically, 
provide the fees to keep the parks sanitary if we are going to 
keep them open, but that decision has to be made.
    Mr. Wallace. I understand.
    Senator Manchin. So that is a tough one.
    I am going to defer because I know we are running for 
votes. I have a lot of our Senators here that want to ask 
questions, so I will basically yield my time to Senator 
Heinrich right now if he would like to go with his.
    Senator Heinrich. Thank you very much.
    Mr. Wallace, are you a big fan of the North American model 
of wildlife conservation?
    Mr. Wallace. I am. The tenants that--yes, sir.
    Senator Heinrich. I am not surprised by that answer. And I 
am as well. I think it is that we are frankly the envy of the 
world because of that model.
    And a lot of people today, I think, lack perspective on the 
history of that and don't realize that there was a time in this 
country when white-tailed deer were almost wiped out. It is 
kind of hard to imagine that. We had not a single elk in New 
Mexico. Today we have 70,000, and that is certainly something 
to be very proud of. The exception to that success, I think, 
has been ironically our national mammal, the American Bison. 
And I actually don't have a question on this, I just want you 
to think about the fact that that is a somewhat embarrassing 
omission in our history.
    I think it is long past time that we start to find a path 
with all those partners you mentioned, with states, with tribes 
and the Federal Government, Fish and Wildlife, to recover 
something more than a postage stamp, ecologically significant 
public land, a huntable, wild bison herd somewhere in North 
America because I think when Teddy Roosevelt put us on this 
path, that would have been one of the things that he would have 
had out in the future.
    So that is not a question, that is one of those things for 
you to think about because you don't have enough on your plate 
already.
    I want to ask you about the maintenance backlog real quick. 
We hear so much about the park's backlog and that is critically 
important. But we also have enormous backlog on our wildlife 
refuges, in our national forests, on BLM lands. We have closed 
campgrounds and unusable trails and all of that has enormous 
economic implications for our states.
    I would just ask that, if confirmed, would you support 
working with us on a maintenance funding solution that 
addresses all of those public land agencies and not just the 
National Park Service?
    Mr. Wallace. I certainly will, Senator.
    I think the work that you all did with the 115th Congress 
with that lands package was historic. I mean, it's something 
everybody, you should all be proud of going home to say, this 
is what we did. 116th is a chance to do the same thing with the 
maintenance backlog.
    And I agree, it's not just the national park areas. It's 
BLM. It's clearly the Fish and Wildlife Service areas and yes, 
sir.
    Senator Heinrich. I will just leave you with this thought. 
You know, some of that needs to be done directly through those 
agencies. We often forget that a huge part of that backlog is 
also road maintenance and much of that is supposed to be 
actually paid for out of the Highway Trust Fund. We need to 
think about both of those pieces as we work together on the 
backlog issue.
    Thank you, Chair.
    The Chairman. Thank you, Senator. And know that we are 
planning on having an oversight hearing in the next week or so, 
and we are focused really keenly on this transportation piece 
of things.
    Let's go to Senator Hyde-Smith.
    Senator Hyde-Smith. Thank you, Madam Chairman.
    Mr. Wallace, congratulations so much on your nomination to 
be the Assistant Secretary for Fish, Wildlife and Parks, one of 
my very favorite agencies, no doubt, and it is so important for 
us to have these Senate-confirmed leaders over this agency that 
have such an impressive resume as yours. I think you are just 
the right person for this job, and thank you for willingness to 
take it.
    You know, Mississippi is very proud of its national parks 
and wildlife refuges. And with the enactment of the lands 
package earlier this year, the establishment of the Medgar and 
Myrlie Evers Home as a national monument and, you know, whether 
it be the bird depredation for our many catfish farmers as we 
produce more catfish than anyone in the country. These things 
are certainly important to my state and federal duck hunting 
regulations and the recreational opportunities at Mississippi's 
15 national wildlife refuges, the programs and activities 
carried have such an impact on our state. So thank you for 
being willing to do this.
    One issue, in particular, I would like to highlight is 
obviously catastrophic flooding that is occurring right now in 
Mississippi in the delta. Hundreds of thousands of acres have 
been underwater now for more than three months affecting, of 
course, our timberland, our wildlife habitat and the homes and 
communities. I have been over there multiple times and the 
devastation is truly real.
    Included in the flooded area are a number of national 
wildlife refuges with more than 100,000 acres of prime wildlife 
habitat. I am not suggesting you can fix this problem, but you 
need to be aware of the significant damages that are occurring 
right now.
    I certainly want to invite you to travel to Mississippi in 
the coming months, not only to observe the flooding issue but 
also to meet with Mississippians on various issues that are 
very important to them. So I extend that invitation to you, and 
I certainly hope that I can visit with you while you are in our 
state.
    Thank you very much.
    Mr. Wallace. I gratefully accept.
    The Chairman. Let's go to Senator King.
    Senator King. Thank you.
    Mr. Wallace, I did not realize until Senator Enzi's 
introduction that you had worked with Jim Geringer. Jim and I 
were governors together for eight years. He was one of my 
favorite people in the country. I hope you will give my warmest 
regards to Jim and Sherri, please, when you see them.
    Mr. Wallace. I will.
    Senator King. We had a great relationship.
    This has been, sort of, touched on, but the Secretary and 
his predecessor were big supporters of the Restore Our Parks 
Act which has the potential to be a historic action, 
bipartisan, to really make a difference to deal with this 30-, 
40-year-old deficit. I hope you will be a strong voice on that 
subject as well.
    Mr. Wallace. I will, Senator.
    Senator King. Thank you.
    I have dealt with few issues as complicated as fish passage 
and which fish should be allowed where. We have one of these 
disputes going on in Maine now between U.S. Fish and Wildlife 
and the Maine Department of Inland Fisheries and Wildlife where 
FERC has recently issued an order to essentially open up fish 
passage into a lake that has been blocked to certain species, 
alewives, in particular, for many years to protect the 
landlocked salmon and bass fishery.
    I don't expect you to wade into this except I would ask 
that you would use your good offices, if confirmed, to try to 
facilitate discussions between our state Fish and Wildlife 
folks and the federal agency to see if there is some way to 
find a solution to this issue, because there are people in 
Maine who feel that if this is opened up, as has been proposed, 
it will destroy a very well-established and important fishery 
in landlocked salmon and bass. Would you give me your 
commitment to take a look at this issue and try to foster some 
discussions?
    Mr. Wallace. I will, Senator.
    As you correctly noted, it's an issue that I'm not familiar 
with but I know it's important to you and I commit to learning 
more about it and being back in touch with you about what I've 
learned.
    Senator King. And I just wanted to add my voice to those 
who have been very impressed by your background, your approach 
to these issues.
    National Parks are very important in Maine. We have two 
national park units, Acadia National Park, one of the original 
national parks dating back to 1916, and one of the newest park 
units which is Katahdin Woods and Waters which is inland in 
Maine. I invite you to come and visit either or both of those 
wonderful spots. I think you'll see how important they both are 
to their communities and to the region and to the State of 
Maine.
    Mr. Wallace. You know, I would like to choose both.
    Senator King. Thank you.
    [Laughter.]
    Mr. Wallace. I would also say, Senator, two of the finest 
superintendents spent time in Wyoming, Kevin Schneider at 
Acadia and Timmy Hudson that's up in Katahdin. Both were, you 
know, got steeled a little bit. They were working in Wyoming 
years ago.
    Senator King. That is right.
    Kevin Schneider is doing a wonderful job, and I am thinking 
of introducing legislation that will disallow Tim Hudson from 
retiring because he is doing such a great job.
    [Laughter.]
    Mr. Wallace. Well, he's doing--he's been trying for a long 
time. So the bully pulpit seems to be working.
    Senator King. I know. I know.
    Well, thank you very much, Mr. Wallace, for your commitment 
and your willingness to work with us. I look forward to working 
with you on those park units and other issues that arise, both 
in the parks and also with U.S. Fish and Wildlife.
    Mr. Wallace. Well, I look forward to that. Thank you, 
Senator.
    Senator King. Thank you.
    The Chairman. Thank you, Senator King.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you.
    Mr. Wallace, welcome. Congratulations on your nomination. 
Welcome to your family, those that are here and those that are 
listening, I am sure, intently.
    I am very impressed with your background and want to bring 
something to your attention, particularly in Nevada.
    I am the Senior Senator from Nevada and, you may or may not 
know this, I would assume on your background you know something 
about this. But 87 percent of the land in Nevada is owned by 
the Federal Government. That means that we have to really bring 
key stakeholders together, including the Federal Government, 
when we have issues that are contradictory or issues that we 
need to deal with when it comes to land and land management.
    One of the issues I am going to just bring to your 
attention and ask for your support, and it deals with the 
Desert National Wildlife Refuge in Southern Nevada. It is a 
very unique place. It is the largest wildlife refuge in the 
Lower 48 states, encompassing roughly 1.5 million acres in the 
State of Nevada. It is predominately known as the home to 
Nevada's iconic bighorn sheep, although numerous other plant 
and wildlife species also share the range. Much of the range, 
though, is jointly administered with the Air Force as part of 
the Nevada Test and Training Range which is used as a proving 
ground and flight test area. The NTTR, the Test and Training 
Range, is the largest air and ground military training space in 
the contiguous U.S. and has no interference with commercial 
aircraft for that reason. And right now, both the Desert 
Wildlife Refuge and the NTTR contribute to this unique 
character of Nevada where we have competing interests, and we 
have to have everybody work together.
    The challenge we are having right now is that the Air Force 
is seeking a land withdrawal and part of that land withdrawal 
is seeking to expand into the national wildlife refuge. This 
has required all of our stakeholders to come together and 
really figure out how we address this issue. Many are opposed 
to it and so much so that our legislature, the Nevada State 
Legislature that just finished since sine die this past week, 
they issued a resolution opposed to any land withdrawal taking 
away from that national wildlife refuge.
    I bring this to your attention because so far, in respect 
to this issue, the Interior Department has been largely silent. 
So what I am asking from you is help. I need your commitment 
that you would be willing to come to the table, sit with all of 
us, figure out how we address this, bring all these competing 
interests together and have this conversation so that we can 
all walk away knowing that voices were heard and we can come to 
some final solution addressing this land withdrawal. Are you 
willing to do that?
    Mr. Wallace. I am, Senator.
    I think it goes back to what I mentioned early on to 
Senator Murkowski, you know, partnerships are sometimes easy to 
say and hard to do, but I'm committed to making them work. It's 
the secret sauce in almost all public policy. If you can get 
the right group of people together in good faith, remarkable 
things happen.
    There may be issues within the Department where we've seen 
this before, where other military withdrawals have occurred 
with wildlife refuges, maybe there's a lesson learned out there 
that we can bring to Nevada. But I'm happy to learn more and 
committed to working with you.
    Senator Cortez Masto. Thank you. I appreciate that.
    Congratulations again on your nomination.
    Mr. Wallace. Thank you, Senator.
    Senator Cortez Masto. Thank you.
    The Chairman. Thank you, Senator.
    Senator Daines.
    Senator Daines. Thank you, Madam Chair.
    Mr. Wallace, it is great to have you here today.
    In looking at your bio, I believe you truly have the 
knowledge, the experience, the expertise, the service, of the 
Assistant Secretary of the Department of the Interior.
    I do have a few Montana priorities I would like to discuss 
with you though. I recently spoke with Secretary Bernhardt on 
the importance of addressing workplace and sexual harassment in 
our national parks. I believe it is one of the most important 
issues for you to focus on in your new position. In fact, 
Montanans and employees deserve a safe work environment. We 
must do all that we can to ensure that. We also discussed the 
need to address the growing maintenance backlog in our national 
parks. The Secretary committed to me to continue to work on 
these two important issues and in your new position you would 
also play a very key role.
    My question is, if confirmed as Assistant Secretary for 
Fish, Wildlife and Parks, do I have your commitment to work 
with me to address harassment as well as the maintenance 
backlog in our parks?
    Mr. Wallace. Absolutely on both, Senator.
    I, you know, as a father of a couple of pretty capable 
daughters, I can't imagine. I'd love them to have a career in 
the National Park Service some day and the fact that they may 
find themselves in the bottom of the Grand Canyon for two weeks 
in a predatory environment, it just is disgusting and something 
that I am fully committed to making sure that, from the top to 
the bottom, that policy is well underway in being implemented.
    And the maintenance backlog I talked about earlier, what a 
great legacy for all of us to work on together.
    Senator Daines. Well, I count myself very fortunate to have 
the Ranking Member, Senator King, on the National Parks 
Subcommittee with me. And I know it is a passion we share.
    We want to see this actually get done. I think it is a 
great opportunity, tremendous bipartisan support. Egos are set 
aside right now. I think we can actually get something done 
here in the Senate. So thank you.
    We also share being fathers to a couple of daughters, so I 
share your passion for your daughters as well.
    I recently visited Libby, Montana, to discuss with 
community members the importance of getting the Rock Creek and 
Montanore mines up and running. Literally, over three decades 
in regulatory process at this point. These are over 400 jobs 
for a part of Montana that some describe as poverty with a 
view. We need these jobs badly. They are a critical part in 
Northwest Montana. They are heavily supported by the local 
community. We had Democrats, we had Republicans, all there in 
support of this when I was up there recently, elected 
officials, school administrators, many more.
    And despite these decades, decades of permitting, these 
mines are still years away from being fully operational. We are 
talking about hundreds of high wage jobs, large increases in 
local tax revenues, all put on hold because of lengthy and 
burdensome permitting and endless litigation, often politically 
driven.
    While I understand it is the Forest Service we are 
currently waiting on for this specific project and we hope to 
have a supplemental EIS out any day now for the Montanore mine, 
the Fish and Wildlife Service plays a really important role in 
permitting projects on federal lands.
    My question is, if confirmed, what modernization and 
streamlining would you like to undertake to improve the 
coordination and the consultation with other agencies to speed 
up the permitting process?
    Mr. Wallace. You know, Senator, this is one of those issues 
I'd like to come back with you and learn a little bit more 
about to make sure we're focusing on the right issues and that 
I'm in a position where I can be of most help to you.
    But again, it goes back to the state and the partnerships. 
It's the secret sauce. And we all, sort of, have a commitment 
to finding a way to make it work.
    And in your particular--I look forward to coming back and 
hopefully even seeing you out West to talk about it.
    Senator Daines. That would be the best place to talk about 
it. Thank you.
    Mr. Wallace. Thank you.
    Senator Daines. The last thing I want to talk about is the 
Endangered Species Act reform needed.
    The Endangered Species Act (ESA) has been successfully used 
to recover endangered and threatened species for decades. 
However, excessive litigation--and we see that in Montana as 
part of the Ninth Circuit Court--and other abuses has led to 
delays in delisting recovered populations.
    Despite the Fish and Wildlife Service proposing the 
delisting of the Greater Yellowstone grizzly bear and the gray 
wolf in the Lower 48, their progress has been caught up in more 
litigation.
    It is my opinion that sound science should derive the 
listing and delisting of species, not fringe litigation and 
personal opinions. If the science shows the species has 
recovered, it is quite quantitative at the end of the day, we 
should be able to delist and use these resources to recover 
species that are actually endangered.
    We should celebrate the fact that the grizzly bear has 
recovered. It is exceeding all the targets that were set when 
it was listed.
    My question is, if confirmed, how will you address ESA 
abuses and continue to promote sound science to delist 
recovered species?
    Mr. Wallace. Again, this would be a question that I, having 
not been at the Department and having a chance to, kind of, 
really, look under the hood to the degree that I think your 
question requires, to just speak in general terms that I 
completely agree that the idea that the Endangered Species Act 
has worked. We've seen some remarkable examples of that in the 
areas where we live, the bald eagle, the peregrine falcon, the 
black-footed ferret, the whooping crane, the grizzly bear. And 
for it to continue to work, people have to have confidence in 
the transparency, the science that goes in front of a listing 
decision, the science that goes on a recovery, the transparency 
of how it goes. But once it's recovered it needs to go back to 
the management of the states or the tribes as envisioned.
    So I'm going to look under the hood more, have a look at 
more detail, but in principle for it to work it has to be 
transparent and once a species is recovered, it needs to go 
back under the management of the states or the tribes.
    Senator Daines. Thank you.
    I am out of time here, but that is an important principle. 
I will tell you, out in Montana, we do a pretty good job of 
managing wildlife and it is time to transfer that 
responsibility back to the State of Montana as it relates to 
grizzly bears as we delist it.
    Thank you.
    Mr. Wallace. Thank you, Senator.
    The Chairman. Thank you, Senator.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Mr. Wallace, thank you for your willingness to serve.
    I want to ask you about a couple of large issues. 
Obviously, the Land and Water Conservation Fund. I have heard 
you talk about the backlog and maintenance already this 
morning, but what about making sure that we get funding at the 
levels that we need to have continued access to lands that are 
important in carrying out the larger mission?
    And on wildfires which are, you know, we have one raging in 
the state right now in Grant County. These are big risks to our 
wildlife as well. So could you address that and what you think 
we should be doing to mitigate those impacts?
    Mr. Wallace. Senator, I've been around the Land and Water 
Conservation Fund pretty much my entire career. It's a 
marvelous tool to help people enjoy their public lands, 
recreate.
    I've heard Secretary Bernhardt mention in testimony, and I 
feel the same way, that with the fact that we're both at the 
Department, hopefully in confirmed positions for me, we'll have 
a better opportunity to, sort of, argue and fight for that 
issue in the next budget cycle that I know it is important to--
I mean, almost every member that I talk to brings that up. And 
I'm fully committed to working to see that funding at the level 
you all will find satisfactory.
    Wildfire policy, again, I haven't been to the Department 
yet, but I know that just based on watching the terrible fires 
that we've experienced in the West over the last few years that 
there's a lot of deep thought that needs to go into that.
    And I'm going to get smarter about the policies, again as I 
said to Senator Daines, look under the hood and hopefully be 
able to come back and have a more meaningful conversation with 
you about ideas on how to do that.
    Senator Cantwell. But you do believe that climate is 
impacting our fire situation?
    Mr. Wallace. I believe that climate is changing, that man 
has a role in it and it's a big question with a lot of 
variables. Regardless of the cause, the fact is that we have to 
be involved in, sort of, healthy forests and healthy management 
and I'm fully committed to the idea that climate is a man-
created issue and that smart science needs to be a very 
important part of how we adapt or modify our performance.
    Senator Cantwell. We are getting very, very, very technical 
about this in the State of Washington, and one of the reasons 
why we are is because we are putting incredible investment in 
stream restoration. And then, basically we are spending 
millions and millions of dollars to try to return salmon to a 
particular area and then next thing you know, a devastating 
fire season comes through there and basically erodes the 
hundreds of millions of dollars that we have invested.
    So we are trying to think strategically about how we 
preserve those investments and continue to make progress 
without having hundreds of thousands of acres burn up in one 
afternoon and then eroding our streams and our stream progress.
    Mr. Wallace. I was the head of Congressional Relations in 
1988 when the Yellowstone fires occurred. And up until that 
point, you know, a controversial fire was 10,000 acres, 15,000 
acres, that made big national news.
    That was a rounding error in 1988. It became so and I can 
just, when I read about what has happened in your state, in 
California and others, I look back to that experience and just 
can't imagine when you've got actually homes and roads and 
infrastructure involved in those fires too. So Senator, I'm 
fully committed to understanding what you're telling me.
    Senator Cantwell. Right. So just if you could take a look 
at that and then maybe send us some thoughts about this or we 
can pose a more specific question, but what we are really 
interested in is how does, in this position or new role, would 
you, you know, help to target protection of these most 
vulnerable wildlife corridors, you know, from fire? How would 
you engage in the debate to make sure that we, at Interior, are 
doing this important work?
    So we can, I can get that for the record, Madam Chair. I 
can pose a question for a written answer.
    But we do think that this is a very important role because, 
again, we are spending lots of money to protect these areas, 
but we are going to have to be more strategic about how we 
achieve it.
    Mr. Wallace. You know, Senator, one of the things I like 
about, and again, I haven't had the benefit of a lot of very 
smart people that I'll have the privilege of working with, if 
confirmed in this position at Interior, but if you look at the 
system that the Assistant Secretary has, it's about almost a 
quarter of a billion acres in all 50 states, five territories, 
a lot in Alaska.
    And I would like to look at it about where the stress 
points are in that entire system, you know, along the coast in 
Louisiana, it may be adapting to climate change. And I saw 
Governor Edwards actually thinking about moving people out of 
Southern Louisiana. You talk about leadership in your State in 
Oregon. It's ocean acidification. It may be in Wyoming, 
invasive species or fire or migratory corridors or somebody 
that cares about historical preservation. It may be just 
finding the last piece of like Champion's Hill at Vicksburg to 
add to the system.
    So there's stress points all over, and I think if I do my 
job correctly, I'm able to look at fire, invasive species, 
migratory corridors, climate and make sure that the applied 
science and the resource managers have the tools to address the 
problems that you so eloquently raised a minute ago.
    Senator Cantwell. Thank you. Thank you, Madam Chair.
    The Chairman. Thank you, Senator.
    I am just reminded that I was reading an article coming in 
this morning about the road at Denali National Park where you 
get into the heart of the park itself and what we are seeing. 
We are seeing a series of landslides, which you and I are 
working on legislation, but landslides and slippage that is due 
to a thaw in the permafrost. It is going to be a considerable 
undertaking for the Park Service. So when Senator Heinrich 
mentioned the piece about parks' maintenance and the funding 
and just the infrastructure side of the ledger, it is just a 
reminder that what we see from climate exacerbates already 
challenging issues when it comes to infrastructure for our 
parks.
    We will have an opportunity to discuss more of this when we 
do our parks oversight.
    Mr. Wallace, I just have a couple more quick things because 
I think what members have done is, they have really highlighted 
the priorities. I appreciate Senator Daines bringing up the 
workforce and ethics issues. I think that is very key, and I 
would join him in a sense of urgency in making sure that we 
address these and we address them boldly and quickly. You have 
heard from all of us about the park maintenance. We need a 
partner to work with on that. Again, so many of the local 
priorities that you get involved with that will be important 
going forward.
    I just wanted to ask for the record here. Again, this goes 
back to more Alaska-specifics, but under the Tribal Self-
Governance Act, the Department of the Interior is authorized to 
work with tribal governments to enter into compacts or annual 
funding agreements, and these are government-to-government 
agreements. They involve indirect costs. They are separate. 
They are different from park concessions.
    We have been working in Alaska to, kind of, pioneer in this 
area. The Sitka Tribe has recently, actually it has been a 
couple of years now, they have entered into a compacting 
agreement with the Park Service at the Sitka National Historic 
Park. I have been out there. We have, kind of, walked through 
the bumps and the hurdles. But it is important to try to get 
this right with the Sitka Tribes because other tribes and 
native corporations are looking at this as possible models 
going forward. I would just put this on your radar, and ask 
that you get up to speed on this, commit to directing some of 
your staff, again, not only on the training side but to see 
what it is that we can do to make these compacts workable 
arrangements, not only workable for parks but workable for the 
tribes that engage in those.
    Mr. Wallace. I'll certainly commit to getting up to speed, 
Senator. Thank you for bringing that to my attention.
    The Chairman. Lastly, a couple of years ago Congress passed 
the National Park Service Centennial Act, and we expanded the 
agency's authority to award and administer the various 
commercial services, contracts for operation and expansion of 
commercial visitor facility services. But it has been almost 
three years now, and we haven't seen Interior implement any of 
these regulations. So we are waiting. We are not quite sure why 
it has taken three years on this. But again, when you think 
about the necessity to provide for a level of services within 
our parks, it is maintenance, it is upkeep that we need to 
focus on. But if we haven't done a good job on the service 
agreement side of it, that is also an area that needs some 
attention. I just ask that you to look into why, some three 
years after the fact, we have not seen any implementing regs 
yet.
    Mr. Wallace. I will, Senator, thank you.
    The Chairman. Thank you.
    Senator Manchin.
    Senator Manchin. I just have one comment.
    I look forward to working with you. I look forward to 
voting for you.
    I think you have a great opportunity, Mr. Wallace, to 
really make some changes, necessary changes, that we have and 
also be able to have the support in a bipartisan way of the 
resources that will be needed to do the park maintenance to 
basically secure our parks, make them more, I think, more user 
friendly, if you will, and hopefully navigate your way through 
some of the difficulties that we don't intentionally try to put 
before you but might come about because of a dysfunction that 
sometimes interrupts our day-to-day operations here.
    But I really do look forward to working with you and think 
you are going to do a great job.
    Mr. Wallace. Well, thank you, both.
    I look forward to maybe even sitting here again sometime.
    [Laughter.]
    Senator Manchin. That is a guarantee.
    Mr. Wallace. It would be twice now.
    The Chairman. Well, Rob, thank you. Thank you for, again, 
your willingness to serve.
    I think it is clear from the questions that you will enjoy 
strong support within this Committee. I don't want to predict 
any outcomes, but my sense is that you hit it out of the park 
today, and we will be very pleased to be able to send your name 
forward to the Floor as soon as we are able to move you out of 
Committee. And we look forward to doing that very, very soon.
    We appreciate your willingness and that of your family to 
provide that support. Fourteen-year-olds do come around. It 
takes a little bit, so keep up your negotiation there.
    With that, the Committee stands adjourned.
    [Whereupon, at 11:09 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS IS NOT AVAILABLE IN TIFF FORMAT] 

                               [all]
</pre></body></html>
